. .'
l'




                                  AGREED-UPON PROCEDURES REPORT 


                                           ON SENSITIVE PAYMENTS 


                                        AUDIT REPORT NUMBER 1-20 


                                              SEPTEMBER 28, 2001 





       This report may contain proprietary information subject to tbe provisions of 18 USC 1905 and must not be
       released to the public or another agency without permission of tbe Office of Inspector General.
                           U.S. SMALL BUSINESS ADMINISTRATION
                               OFFICE OF INSPECTOR GENERAL
                                   \VASHINGTON, D.C. 20416



                                                                   AUDIT REPORT
                                                          Is~ue   Date: September 28, 2001 .
                                                          Number: 1-20


To:              Joseph P. Loddo
                 Chief Financial Officer

                 Cory Whitehead
                 Acting Assistant Administrator for Administration

                Robert L. Gangwere
                Acting General Counsel

                Ex. ~
               Lr-oL-.A-
From: ~ Robert G. Seabrooks         "
                                             l
        Assistant Inspector General for Auditing

Subject:        Agreed-upon Procedures Report on Sensitive Payments

        Attached is the agreed-upon procedures report on sensitive payments issued by Cotton &
Company LLP. The report discusses the following issues: (1) appropriated funds may have been
used to pay for some of the former Administrator's political travel, (2) SBA paid some costs of
personal travel by a former regional administrator, (3) SBA's travel order review process was not
always thorough, and (4) SBA offices did not always comply with required procedures over
sensitive payments.
        The findings included in this report are based on the auditors' conclusions. The findings
and recommendations are subject to review, management decision, and corrective action by your
office in accordance with existing Agency procedures for audit fonow-up and resolution. Please
provide us your proposed management decision for each recommendation on the attached fonns
1824, Recommendation Action Sheet, within 30 days. Should you or your staff have any
questions, please contact Robert Hultberg, Director, Business Development Programs Group at
(202) 205- [Fl.'! ~ ~x, 2 J
Attaclnnents
                       COTTON & COMPANY LLP 

                                                     auditors. advisors
DAVID   L.   CorrON, CPA, CFE, CCFM •   CHARLES HAYWARD, CPA, CFE, CISA • MICHAEL W. GILLESPIE, CPA, CFE •      CATHERINE   L.   NOCERA, CPA
                        MATTHEW   H. JOHNSON,   CPA, CCFM •    SAM HADLEY, CPA, CGFM •   COLETTE   Y.   WILSON, CPA




                                    INDEPENDENT ACCOUNTANT'S REPORT ON 

                                    APPLYING AGREED-UPON PROCEDURES TO 

                                            SENSITIVE PAYMENTS 




   Inspector General
   U.S. Sma]] Business Administration


            We performed the procedures enumerated below, which were agreed to by the U.S. Small
   Business Administration (SBA), Office of Inspector General (GIG), solely to assist it in evaluating the
   appropriateness of sensitive payments made by SBA in Fiscal Year (FY) 2000. This agreed-upon
   procedures engagement was conducted in accordance with attestation standards established by the
   American Institute of Certified Public Accountants. The sufficiency of these procedures is solely the
   responsibility of the parties specified in this report. Consequently, we make no representation regarding
   the sufficiency of the procedures described below either for the purpose for which this report has been
   requested or for any other purpose.

           SBA has approximately 4,600 employees. We identified 100 of these as being in positions
   allowing significant discretion in the use of agency funds. Senior executive service (SES)-level officials
   and political appointees were included in this group of 100 individuals. For testing, we obtained a sample
   of36 from the 100: SBA's 4 presidential appointees, 14 employees selected by the OIG, and 18
   employees randomly selected from the remaining population. We applied the following procedures for
   the sample of 36 employees.

   1. 	         We identified the destination of all travelers to verify that frequent trips to the same location were
                appropriately justified, and that the travel was commensurate and consistent with the employee's
                position and duties for official travel.

   2. 	         From the 36 employees sampled, we judgmentally selected 220 travel vouchers to determine if
                travel was authorized and approved; supporting documentation exists and agrees with amounts
                recorded on the voucher; and amounts claimed are in accordance with the Federal Travel
                Regulations (FTR) and are correctly calculated.

   3. 	         We reviewed budget logs to determine if payments to contractors or public relations firms were
                made for travel and, if so, if the travel and payments were appropriate.

  4. 	          We reviewed credit card statements issued to the offices of the 36 selected employees to
                determine if any of the payments were related to travel or entertainment, and, if so, if the
                payments were appropriate.
                                                              ~<            .,r-·.
                                                                    r,
                                                              ~.,-
                                                              rstablishrd   j   98 j


                                  333 NORTH FAIRFAX STREET. SUI-rt401 • ALEXANDRIA, VIRGINIA 22314 

                         703/836-6701 • FAX 703/836·0941 • \1(~/W.COTTONCPA.COM • DCOTTON@COTTONCPA.COM 

         We were not engaged to and did not conduct an examination of sensitive payments, the objective
 of which would be the expression of an opinion or a disclaimer of opinion on the sensitive payments.
 Accordingly, we' do not express such an opinion. Had we performed additional procedures, other matters
 might have come to our attention that would have been reported to you.

         We discuss our findings in the balance of this report.

 ADMINISTRA TOR'S TRAVEL NOT PROPERLY REVIEWED

         Travel by the former Administrator was not always reviewed properly to ensure that appropriated
funds were used only for official government travel. One of the trips taken by this Administrator that we
reviewed involved travel to Albany, New York, that appeared to be both official and ofa political nature.
According to the information we obtained, the events on the Administrator's itinerary-a reception and
concert on Friday, March lO, 2000, and a breakfast meeting on Saturday, March 11, 2000-were hosted
by the New York Assembly Puerto R.jcanlHispanic Task Force. Local media described the event as a
"local campaign stop in bid for upstate's Hispanic, urban Democrats." These events were also attended
by the former Vice President and the former First Lady of the United States who at the time were
candidates for President and U.S. Senate, respectively.

         In accordance with the Hatch Act, the SBA Administrator may engage in political activity if costs
are not paid with appropriated funds. To ensure compliance with the Hatch Act, SBA's Designated
Agency Ethics Official (DAEO) should review the Administrator's travel plans to determine ifpart or all
of the travel may be of a political nature. According to the DAEO, it only makes such a determination
when requested to do so by the Office of the Administrator or, occasionally, the Office of the Chief
Financial Officer (CFO). For the trip to Albany, the DAEO was not requested to and did not review the
Administrator's travel plans.

       We recommend that the DAEO periodically provide training and guidance to the Office of the
Administrator on recognizing travel that may have combined purposes; and also request the Office of the
Administrator to submit any travel plans that may have combined purposes to the DAEO for prior
approval. We also recommend that the DAEO review the former Administrator's Albany trip to
determine the nature of the trip. If for a combined purpose, we recommend that SBA obtain
reimbursement for any amount incurred for other than official business.

SBA PAID COSTS OF SOME PERSONAL TRAVEL BY A REGJONAL ADMINISTRATOR

         The official duty station for SBA' s former Region VIII Administrator in FY 2000 was Denver,
while her residence was in Yankton, South Dakota. During FY 2000, this regional administrator
submitted 31 travel vouchers; of these, 27 indicated that travel either originated or tenninated in Sioux
Falls, South Dakota. Regional administrators have the authority to approve their own travel, which the
former Region VIII Administrator did for each ofthese 27 trips.

         Travel vouchers for the 27 trips did not show evidence that the regional administrator calculated
personal costs associated with these trips or reimbursed such costs to the government. As a result of
travel either originating or tenninating in Sioux Falls, the government paid at least $1,500 in additional
costs for at least 10 of the 27 trips.

          The FTR and SBA's travel regulation allow SBA employees to combine personal travel with
official travel. Additional costs incurred for personal travel may not, however, be paid with government
funds,and government credit cards may not be used to pay for such travel. Further, reimbursement is
limited to the cost of travel by a direct route or on an uninterrupted basis (FTR Section 301-1O.8). The


                                                    2
 traveler is responsible for any additional costs. SBA's SOP 20 11 requires advance authorization for
 travel, including personal travel and personal leave.

          We recommend that the CFO issue a procedural notice reminding employees of the importance
 and need to follow and adhere to SOP 20 II regarding personal travel. We also recommend that the CFO
 revise its policy and procedures to require an appropriate higher-level official to approve all official travel
 combined with personal travel, including travel by individuals with authority to self-approve trips.
 Further, we recommend that the CFO provide a periodic report to supervisors of individuals with self­
 approval authority to assist them in monitoring travel.

 TRA VEL ORDER REVlEW PROCESS NOT ALWAYS THOROUGH

         We reviewed 220 travel vouchers and found noncompliance with the FTR on 10. Although none
of the errors resulted in a significant dollar amount, a 5-percent error rate is indicative of an inadequate
review process. SBA's Denver Finance Center (DFC) reviews all travel vouchers over $1,500 and all
travel vouchers for employees at grade GS-13 and above. Thus, DFC had reviewed all vouchers we
reviewed. Errors are sununarized below.

                                                                                             Unallowable
                                                                                              Amount
Traveler claimed and was reimbursed for 2 days of per diem for a I-day trip.                       $68.00

Traveler submitted a receipt supporting 1 night of lodging, but claimed and was
reimbursed for 4 nights oflodging.                                                                 145.14

Traveler submitted a receipt supporting lodging at $217.80 per night for 2 nights, but
claimed and was reimbursed at $235.00 per night-the maximum lodging amount.                         34.40

Traveler attended a conference that provided all meals, but claimed and was
reimbursed costs of meals and incidental expenses (M&IE).                                           40.00

Traveler claimed and was reimbursed for M&IE at $38 per day in a location with an
FTR limit of$30 per day.                                                                            16.00

Two travelers claimed and were reimbursed full-day M&IE on the first and last day
of travel when the limit is three-quarters of one day.                                             170.00

Two travelers claimed and were reimbursed lodging expenses in excess of FTR
maximums without documentation supporting excess amounts.                                          504.04

Traveler claimed and was reimbursed for 2 one-way airline tickets on the same day
to the same destination originating from different locations.                                      126.50

                                                                                                ~1,104.08


        We recommend that the DFC Director issue a procedural notice to emphasize the importance of
accuracy and documentation for travel orders. We further recommend that the Director develop detailed
procedures to ensure that all vouchers are thoroughly reviewed and documentation verified. In addition,
we recommend that the CFO provide additional training to voucher examiners as appropriate.



                                                      3

 SBA OmCES NOT ALWAYS COMPL)lNG \\lTH PROCEDURES OVER PAYMENTS

        We found that some SBA offices did not always follow the SOPs in the following tlrree areas:

 Retention of Documentation.

        We were unable to review supporting documentation for Office of General Counsel (OGC) credit
card purchases, because OGe did not retain credit card purchase records, which includes credit card
statements, SBA Form 2 (Requisition for Supplies, Services & Federal Assistance), and receipts for FY
2000. The Office of Advocacy did not retain credit card statements for purchases made in FY 2000.

        SBA's Standard Operating Procedure (SOP) 0012, Chapter 4, 2a (8), states:

               Retain credit card purchase records for three years after final payment.
               Periodic, random audits wjJ] be conducted to ensure compliance and
               accountability for all VISA purchases.

        We recommend that the Office of Administration issue a procedural notice to remind all SBA
offices of the need to follow SOP 00 12 regarding record retention of credit card statements and
supporting documentation.

Approval of Purchases.

       Headquarters program offices did not always provide required information on SBA Form 2. We
reviewed 94 ofthese forms. Box 6, Budget Approval (Initial and Date), was not completed on any of
them.

       SBA's SOP 0012 Chapter 4, 2, b (2c) states:

               The approving official must ensure that the items purchased were
               authorized by a Form 2, received the necessary clearances prior to
               purchase, and were otherwise appropriate.

        We recommend that the Office of Administration issue a procedural notice to remind all SBA
offices of the need to follow SOP 00 12 regarding use of and requirements for proper completion of SBA
Form 2.

Approval of Training and Other Meetings.

        SBA program offices do not use SBA Form 1179 (Request for Approval to Hold and/or For
Employees to Attend Meeting, Conference, Convention, or Symposium) for meeting planning, as
required.

       SBA's SOP 2011 4, Chapter 1, Section 6, c. (1), states:

               Travel for conference and meeting attendance and training shall be
               authorized on a trip-by-trip basis. Attendance to these sessions requires a
               completed SBA form 1179, Request for Approval to Hold and/or for
               Employees to Attend Meeting, Conference, Convention, or Symposium.

         We recommend that the CFO issue a procedural notice to remind all SBA offices
of the need to follow SOP 2011 regarding the use and requirements for completion ofSBA Form 1179.

                                                   4
Management's Response

         SBA management generally concurred with findings in the draft report and provided corrective 

actions (see the attachment). SBA did raise concerns regarding two of the findings in the draft report. 


        First, regarding review of the Administrator's travel, we had addressed our recommendations to
OGC. Based on management comments, we changed this to the Designated Agency Ethics Official
(DAEO). Second, regarding the finding on complying with procedures over payments, SBA stated that
Form 1179 is no longer required for approval of training and other meetings. SOP 20114, Chapter.I,
Section 6, c. (1), does, however, require a completed SBA Form 1179. SBA stated that the SOP is
outdated, but it has not issued a revised SOP 20 11.

        Management's response includes actions it will perform to address our recommendations. When
fully implemented, we think these actions will adequately address all findings.

        This report is intended solely for the information and use of the SBA OIG and management and is
not intended to be and should not be used by anyone other than these specified parties:

       We express our appreciation for the assistance provided by all SBA personnel during this agreed­
upon-procedures review. Without exception, they were cooperative, helpful, and professional.

                                                Very truly yours,

                                                CorrON &    rOMPAiJ LLP

                                           By, 	 L PoI:,f b<.- LR
                                               'M'a"tthewH. Jo~n, CPA, CGFM


July 11,2001




                                                   5
                                                                                                  Attachment 

                                                                                                   Page 1 of3 


                          u.s. SMALL BUSINESS ADMINISTRATION
                                       WASHINGTON, D.C.20416




DATE:              SEP 25 2001

 TO:           Robert G. Seabrooks
               Assistant Inspector Genera] for Auditing

FROM:          Joseph P. Lodde     LroIA.
                                      r;-i>\. 4t ]
               ChiefFinancial Officer

               Cory Whitehead [(-(.)7,<1 fl'-, &oJ
               Acting Assistant Administrator for Administration
                                 --=
               Robert L.  Gan~~           [rD::L-A          "fl<.    GJ
               Acting Gener~ouJ}SJirI

SUBJECT:       Review of Sensitive Payments ­ Response to Draft Report

        Thank you for the opportunity to provide comments to the draft report on the Review of
Sensitive Payments dated August 16, 200L This audit has 9 recommendations addressed to our
offices. Genera11y, we agree with the recommendations in the audit report. We have provided
genera] responses and wil1 provide more specific responses to the individual recommendations
when we receive the fin a] audit report.

     We do have some comments for your consideration in the final audit report. These
comments are provided below after the audit recommendations.

FlNDING: ADMINISTRATOR'S TRAVEL NOT PROPERLY REVIEWED

Recommendation 1: The draft report recommends that the Office of Genera] Counsel (OGC)
periodica11y provide training and guidance to the Office of the Administrator on how to
recognize travel that may be considered mixed travel. Further, the report recommends that OGe
emphasize that the Office of Administrator should submit to OGC for review any travel that may
be considered mixed travel.

Response: Technica11y, OGC does not offer this kind of training or guidance; the Designated
Agency Ethics Official (DAEO) has done it, historically, because the relevant rules are governed
by the Hatch Act. During calendar year 2000, the DAEO conducted a training session to the
former Administrator and her staff. Such training consisted of ora] presentations and written
guidance. Presently, the DAEO has requested the new Administrator to schedule ora] briefings
to his new staff.




           SBA IS AN EQUAL OPPORTUNITY EJ\1PLOYER AND PROVIDER,
                                                               ~
                                 F ~.'.l R_eye"n.   p,,,;,"", ...,   P,in:~ en Rec),cled P';>er
                                                                                        Attachment
                                                                                         Page 2 of3
In addition, OGe does not review or c1ear travel conducted by the Office of the Administrator
that may be considered mixed travel. The DAEO performs this function. The DAEO has
emphasized the need for this review to the current Office of the Administrator. Nevertheless, the
DAEO cannot require or mandate the Office ofthe Administrator to seek legal advice.

Recommendation 2: In addition, the draft report recommends that OGC investigate the former
Administrator's Albany trip to determine ifit was indeed both official and political. If this trip
was for a combined purpose, the report recommends that SBA obtain reimbursement for any
amount incurred· for other than official business.

Response: . The DAEO can review any documents or evidence produced by the OIG in order to
render a legal opinion. Ifthe DAEO determines that mixed travel occurred and that a proper
allocation of expenses had not been made, then the Office of Litigation in OGC will determine
all legal recourse available and against whom. However, the DAEO does not "investigate"
(i.e., procure outside information or documentation) matters involving former Government
employees.


FINDING: SBA PAID COSTS OF SOME PERSONAL TRAVEL BY A REGIONAL ADMINISTRATOR

Recommendation 3: The draft report recommends that the CFO office issue a procedural notice
reminding employees of the importance and need to follow and adhere to SOP 20 II regarding 

personal travel. 


Response: The SBA agrees with this recommendation and will issue a procedural notice. 

Further, the SBA will investigate the travel payments made to the former Regional Administrator 

and take action following applicable procedures to obtain reimbursement as an unautho~zed 

expense of any amounts that were paid for her personal travel. 


Recommendation 4: In addition, the draft report recommends that the CFO revise its policy 

and procedures to require an appropriate higher level official to approve all official travel 

combined with personal travel including individuals with authority to self-approve travel. 

Further, the report recommends that the CFO provide a periodic report to the supervisors of 

those individuals with self-approval authority, so that the supervisors can monitor the travel 

performed. 


Response: The SBA issued policy notice 2000-559 effective September 1, 2000 that requires a 

higher level approval for practically all official travel. This procedure substantially corrected 

this finding. SBA agrees, however, that mixed travel containing personal and official business 

should always be reviewed prior to authorization, and we agree to inc1ude this requirement in the 

procedural notice developed under recommendations 3 and 5. Further, the CFO will review its 

quality assurance process for mixed travel to assure adequate internal control. 





                                                                                                     2
                                                                                      Attachment 

                                                                                       Page 3 of3 

FJNDING: TRAVEL ORDER REVIEW PROCESS NOT ALWAYS THOROUGH

Recommendation 5: The report recommends that the DFC Director issue a procedural notice to
emphasize the importance ·of accuracy and documentation for travel orders. The draft report
further recommends that the Director develop detailed procedures to ensure that all vouchers are
thoroughly reviewed and documentation verified.

Response: The SBA agrees to develop a procedural notice to emphasize accuracy and
documentation for travel orders. Further, although the SBA currently has detailed procedures
over travel voucher processing, the CFO will review its existing procedures and quality
assurance over travel processing as part of our implementation of the JAAMS administrative
system.

Recommendation 6: In addition, the draft report recommends that the CFO provide additional
training to voucher examiners as appropriate.

Response: The SBA will provide training to voucher examiners including any additional
emphasis required to improve the quality of the review process.


FINDING:   SBA OFFICES NOT ALWAYS COMPLYING WITH PROCEDURES OVER PAYMENTS

Recommendation 7: The draft report recom:mends that the Office of Administration issue a
procedural notice to remind a]] SBA offices of the need to fo]]ow SOP 00 12 regarding record
retention ofcredit card statements and supporting documentation.

Response: The SBA agrees with this recommendation and will issue a reminder notice.

Recommendation 8: The draft report recommends that the Office of Administration issue a
procedural notice to remind a]] SBA offices of the need to follow SOP 00 12 regarding the use
and requirements for proper completion of SBA Form 2.

Response: The SBA agrees with this recommendation and will issue a reminder notice.

Recommendation 9: The draft report recommends that the CFO issue a procedural notice to
remind all SBA offices of the need to follow SOP 20 11 regarding the use and requirements for
completion ofSBA Form 1179.

Response: We disagree with this recommendation as the SBA has not used Form 1179 to
approve group travel for many years. We believe that the OIG was using an outdated SOP when
reviewing this area for compliance. This form was eliminated in the current SOP on SBA travel.
This recommendation should be removed.


      Thank you again for this opportunity to provide comments on your draft report on the
"Review of Sensitive Payments." Please contact us if you have any questions on this response.


                                                                                                3
                                                  REPORT DISTRIBUTION 


Recipient                                                                                                      No. of Copies

Administrator ............................................................................................................. 1 


Associate Deputy Administrator for Management and Administration .................... 1 


Associate Administrator for Field Operations ........................................................... 1 


General Accounting Office ........................................................................................ 1 


Office of the Chief Financial Officer 

Attention: .}effBrown ............................................................................................... 1 

